                                                  CLOSEOUT NIEMORANDUM




         provide $2.5 million in cost-share fund to support the project over a 5-year period. Following a
         one-year no cost extension, the grant closed in May       .
         NSF OIG received an allegation that the university was not providing the agreed upon cost-share
         and was misrepresenting the amount of cost-share funds it did provide. NSF-OIG opened an
         investigation into this matter to determine if the university was contributing the cost-share funds
         it promised NSF, if the certifications sent to NSF regarding cost-share contributions were
         accurate and if the university was properly stewarding federal monies.

         During the course of the inirestigation, OIG uncovered significant issues with the university's
         financial management of the award. The university produced documentation to support
         approximately $3.4 million in award expenditures but failed to produce documentation
         demonstrating its use of the remaining $1.4 million of award funds.

         After consulting with the Assistant U.S. Attorney and receiving its guidance, NSF, OIG, and the
         university developed and signed a Compliance Agreement and a Settlement Agreement to
         resolve the issues. Under these agreements, the university agreed to return approximately $1.495
         million to the Federal Government and develop internal systems to detect and prevent criminal
         behavior. The Compliance Agreement and Settlement Agreement are attached.



          Accordingly, this case is closed.




   .      ' Florida Agricultural and Mechanical University


NSF OIG Form 2 (1 1/02)
                                   Compliance Agreement                                                      I

                                         Between                                          a                  1
                              The National Science Foundation       i

6                                           And
                 The National Science Foundation Office of Inspector General                                 I

                                            And
                      Florida Agricultural and Mechanical University                                             I


           This Compliance Agreement (the "Compliance Agreement") is entered into between
    Florida Agricultural and Mechanical University ("FAMU"), the National Science Foundation
    ('NSF"), and the NSF Office of Inspector General ("OIG"). FAMU, NSF, and OIG may be
                                                                                                                 I
    referred to herein individually as "Party" and collectively as "the Parties."



                                                  ,   RECITALS
                                              4


          WHEREAS, FAMU and NSF entered into Cooperative Agreement No.
            tcooperative Agreement), for F-             to assume primary responsibility for planning,
                             .. -
    operating and managing                                                                    -4'for a
    period of September 1,   .-     to August 3 1,        ,'and
          WHEREAS, the primary purpose of the Cooperative Agreement was to develop the
    infrastructure and inter-disciplinary cooperation that would produce new knowledge,
    publishable papers, provide a more effective education for undergraduate and graduate
    students, and result in the graduation. of more minority PH.D candidates in science,
    engineering, mathematics, and or technology; and
          WHEBEAS, the Agreement committed NSF to provide $                             in h d s and
    FAMU to provide cost sharing in the amount of $2,500,000; and
          WHEREAS, as of December 25,2004, FAMU had received funds in the amount of
                                                                                                         I
                                                                                                         I

    $4,800,000 from NSF; and
           WHEREAS, fiom April 2002 until present, the NSF Inspector General has engaged in
    an investigation to address allegations concerning financial information and supporting
documentation related to the Agreement, and the Parties have entered into a Settlement
Agreement to bring that investigation to a conclusion.
                                                                                                 I1
         NOW THEREFORE, FAMU agrees to undertake the compliance obligations outlined
below.


I.       Preamble
         1.    FAMU agrees to implement a Compliance Program (the "Program") to ensure
compliance with the terms and conditions, both General Grant Conditions and any Special
Grant Conditions, applicable to any NSF grants and awards; to ensure compliance with all
relevant laws and regulations governing NSF awards; and to prevent fiaud, false statements,
and misspending of funds related to NSF grants, contracts, and cooperative agreements
("Awards") by FAMU, its officers, faculty, other relevant employees, and relevant
independent contractors and sub-recipients. The Program shall be based upon an assessment
of the risk of such unlawfbl activities; shall have adequate fnanoial and human resources
provided; and shall be maintained so as to ensure that FAMU and each of its officers, faculty,
other relevant employees and relevant independent contractors and sub-recipients maintain
the integrity required of a recipient of NSF funds. It is recognized by the Parties that FAMU
submitted a Corrective Action Plan ("CAP") to NSF on March 15,2004. Nothing in this
Compliance Agreement modifies, amends, or affects the terms of the CorrectiveAction Plan
and its implementation.

11.      Terms and Conditions
       2.      The period of fiture compliance obligations assumed by FAMU under this
Compliance Agreement shall be five (5) years fiom the effective date of this Compliance
Agreement. The "effective date" shall be the date on which the final signatory to this
Compliance Agreement executes this Compliance Agreement. It is understood that FAMU
will not be bound by the terms of this Compliance Agreement until the Board of Trustees of
FAMU ratifies the execution of this Compliance Agreement by its Interim President. The
scope of this Compliance Agreement shall be limited to NSF k d s that are awarded or
disbursed during the aforesaid five-yearperiod. All reports and notifications required under
this Compliance Agreement shall be sent to the NSF OIG Associate Inspector General for
Investigations, via email to oig@nsf.gov and to the NSF Director of the Division of Grants
and Agreements via email. Such reports and notifications shall reference the applicable
section(s) of this Compliance Agreement.                                         .
       3.     FAMU agrees to implement the following measures within one hundred and
twenty (120) days of the effective date of this Compliance Agreement, unless otherwise
specified below:                                                                                        1
                                                                                                        1
                                                                                                    i   l
       A.     Compliance
              1.     Compliance Officer                                                                 1
       4.     An individual shall be appointed by the President to serve as the Compliance
Officer for F M . The Compliance Officer shall be a member of the senior management of
FAMU and shall report to the President and to the Board of Trustees of FAMU. The
Compliance Officer shall be responsible for the Compliance Program operations including,
where appropriate, the review of awards, the development of training programs, and the
submission of comprehensive written annual reports to the President, to the Board of
Trustees, to OIG, and to NSF on the status of compliance at FAMU.

              2.     Compliance Committee for Research
       5.      The Compliance Officer shall chair a Compliance Committee that shall be
responsible for ensuring implementationof the Compliance Program throughout FAMU. In            .
addition:to the Compliance Officer, tlie members of the compliance Committee shall
include, at a minimum, the following FAMU officers: FAMtJ's Inspector General, the Vice
President for Administration and Financial Services, the Vice President of Sponsored
Resekch, the Provost and Vice President of Academic Affairs.

              3.     Compliance Program
        6.      The Compliance Program shall include identification of the positions
throughout FAMU that have roles and responsibilities in the application for, receipt of, and
administration of NSF Awards. Each of those roles and responsibilities shall be described so
that their relationship to FAMU's responsibilities under NSF awards is clear. The lines of
responsibility shall be clearly established ftom each individual position up to and including
FAMU's responsible signatory officials. All individuals in such positions will be provided
with (or have electronic access to) written policies and/or procedures applicable to their
positions for (1) a code of conduct holding FAMU personnel to high ethical standards of
professional conduct and integrity, including addressing conflicts of interest; (2) accurate
time and effort reporting under NSF Awards to meet the standards of the cost principles
specified in the Office of Management and Budget (OMB) Circular A-21 and the Federal
administrative requirements contained in OMB Circular A-1 10; (3) accurate charging of
costs under NSF Awards; (4) accurate monitoring, managing and reporting of cost sharing;
(5) accurate monitoring of sub-recipients and consultants and sub-recipient and consultant
charges; (6) accurate reconciliation of accounting records; and (7) document management
                      F.      Confidential Disclosure Program -
                        15. To the extent permitted by the laws of the State of Florida, FAMU shall
                establish a confidential disclosure mechanism enabling FAMU, sub-recipientand contractor
                employees to disclose anonymously to FAMUys Compliance Officer any practices,
                procedures, or acts deemed by the employee to be inappropriate. FAMU shall make the
                confidential disclosure mechanism known to each relevant employee as part of the training
                described above. FAMU shall require the internal review of all such credible disclosures and
                ensure that proper follow-up is conducted. FAMU shall include in its annual report to NSF
                and OIG a summary of communications received under the confidentialdisclosureprogram,
                and the results of the internal review and follow-up of such disclosures.

                IU.    Dealing with Debarred or Suspended Persons                                               I

                       16. FAMU shall implement, and make appropriately known as part of its training
                program, a written internal operating policy providing that FAMU shall comply with 45
                C.F.R. part 620.

                       17. As to persons or contractors who become excluded while they are employed by
                or under contract wifh FAMU, FAMU shall comply with 45 C.F.R Sections 620.315 & -310,
                respectively. In addition, FAMU shall notie NSF and OIG of each such person or contractor
                who is excluded while they are employed by or under contract with FAMU under an NSF
                Award, and the decision made by FAMU (and the reasons therefore) about whether to
                discontinue the person's employment or to terminate the contract, within fifteen (15) days of
                such decision.

I               IV. OIG Inspection, Audit, and Review Rights
                        18. In addition to any other right that OIG has pursuant to NSF Award conditions
                or other authority, OIG may examine and copy FAMUysrecords, including audits and audit
    I
                workpapers, for the purpose of verifying and evaluating: (a) FAMUyscompliance with the
                terms of this Compliance Agreement; and (b) FAMU's compliance with any NSF
                requirements. FAMU shall make the records available at any reasonable time for inspection,
    I
    I           audit, andfor reproduction. Furthermore, for purposes of this provision, OIG may interview
                any relevant FAMU employee at the employee's place of business during normal business
                hours or at such other place and time as may be mutually agreed upon between the employee
                and OIG. Relevant employees are those individuals with a role or responsibility in the
        I       application for, receipt of, or administration of NSF Awards and those individuals who
                conduct projects supported by NSF Awards.
        I

        I              19. In the event that OIG believes FAMU has breached any of its obligations under
        I   .   this Compliance Agreement, OIG shall noti@ NSF of the alleged breach. OIG shall
subsequently notify FAMU of the alleged breach by email and certified mail (return receipt
requested) to FAMUysAuthorized Organizational Representative ("AOR"), specifling the
nature and extent of the alleged breach. FAMU will have thirty (30) days from receipt of the
notice to: (a) cure said breach; or (b) otherwise satis@ OIG that (1) it is in full compliance
with this Compliance Agreement or (2) the breach cannot be reasonably cured within thirty
(30) days, but that FAMU has taken action to cure the breach and is pursuing such action
with diligence.

       20. If, at the end of the thirty (30) day period described above, OIG determinesthat
FAMU continues to be in breach of any of its obligations under this ComplianceAgreement,
OIG will noti@ NSF. Subsequently, OIG may, by email sent to FAMU's AOR, state its
conclusion that FAMU is in default and refer the matter for NSF to initiate proceedings to
undertake appropriate administrative action, including but not limited to the suspension or
termination of any or all NSF awards andlor suspension or debarment of FAMU. If FAMU
is suspended or debarred based upon breach of the Compliance Agreement, and in the event
FAMU fully cures the material breach or otherwise satisfies NSF, it will be promptly
reinstated.

       21.    Should any action to enforce or interpret this Compliance Agreement or to
resolve any dispute hereunder be required, the Parties acknowledge the jurisdiction of the
federal courts. The parties agree that, absent a breach of this Compliance Agreement and/or
the Settlement Agreement, the execution of the said Agreements shall be final as to all
matters alleged in the said Agreements.

v.     Costs
       22.    Each Party to this Compliance Agreement shall bear its own costs, expenses,
and fees incurred in implementing the terms of the Agreement.

       23. FAMU agrees that all costs, whether direct or indirect, incurred by or on behalf
of FAMU in connection with the following are unallowable costs under the cost principles
applicable to government Awards (hereafter, "unallowablecosts"): (1) the matters covered by
this Compliance Agreement, (2) OIGYsinvestigation of FAMUysperformance under NSF
award               T, (3) FAMU's investigation, defense, and corrective actions undertaken
in response to OIGYsinvestigation in connection with FAMUysperformance under NSF
award i--               and the matters covered by this Compliance Agreement and the
Settlement Agreement (including attorney's fees), (4) the negotiation of this Compliance
Agreement and the Settlement Agreement, and (5) any payment made pursuant to the
Settlement Agreement.
      24. These unallowable costs will be separately estimated and accounted for by
FAMU and FAMU will not charge such unallowable costs directly or indirectly to any
Federal Awards.

VI. Modification
       25.    FAMU, OIG and NSF agree that any modification to this Compliance
Agreement shall not be effective until a written amendment is signed by representatives duly
authorized to execute such amendment.

VII. Integration Clause
       26. This Compliance Agreement and the Settlement Agreement entered into by
FAMU, OIG, and NSF embody the entire and exclusive agreement and understanding of the
Parties with respect to the covered conduct addressed herein. As to the covered conduct,
there are no restrictions, promises, representations, warranties, covenants, or undertakings
other than those expressly set forth or referred to in this Compliance Agreement and the
Settlement Agreement.

       27.   This Agreement will be deemed effective upon the occurrence of the events as
provided in Section II.2 herein.
       28.     Each person who signs this Agreement in a representative capacity warrants
that he or she is duly authorized to do so. IN WITNESS WHEREOF,the Parties hereto affix
their signatures.


                  FOR THE3NATIONAL SCIENCEFOUNDATION

                                                                   24 >w             mc
                                                                          Date
Chief Financial Officer & Director, Office of Budget, Finance, and Award Management




                 FOR THE NSF OFFICE OF INSPECTOR GENERAL


  2 3 7 4 % '   &%w-                                                     ~/3~/or
Christine C. Boesz Dr.P.H.                                                  Date
Inspector General




       FOR FLORIDA AGRICULTURAL AND MECHANICAL UNIVERSITY


LUJ-&
Castell Vaughn @ant
                                                                       $ / ~ / O S
                                                                            Date
Interim president
                                SettlementAgreement
                                       Between
                           The National Science Foundation
                                          And
              The National Science Foundation Office of hpector General
                                          And
                    Florida Agricultural and Mechanical University


         1.  This Settlement Agreement (the "Settlement Agreement") is entered into
 between Florida Agricultural and Mechanical University ("FAMU"), the National
 Science Foundation ("NSF"), and the NSF Office of Inspector General ("OIG"). FAMU,
 NSF, and OIG may be referred to herein individually as "Party" and collectively as "the
 Parties."

        I.     I. The Covered Conduct

      2.     On September 1,            , FAMU and NSF entered into a five-year
 Cooperative ~ ~ r e e m e n- f             (the "Award"), under the (I -
                                        -- .                 the purposes of developing.
  hfhutrilcture and inter-discipline cooperation desibed to enhance minority education.
 NSF committed to provide $:,- - -,- .. in Award funds and FAMU agreed to provide
/cost sharing in the amount of $2,500,000 to support the project for the entire five-year
  Award period. Following a one-year no cost extension, the Award expired August 3 1,
  2003. As of December 25, 2004, approximately $471,000 of Award funds unspent by
  FAMU were reclaimed by NSF. Therefore, as of December 25, 2004, FAMU received
  $4.8 million in fbnding under this Award.

        3.      Based upon credible allegations that FAMU had failed to meet its cost-
 sharing obligations under the Award and questions concerning whether FAMU had
 appropriately spent NSF Award h d s and whether FAMU accurately reported the
 financial status of the Award to NSF, OIG conducted an investigation.

       4.     During the course of the investigation, FAMU provided docunientation to
 support approximately $3.4 million in Award expenditures made between September 1,
 1997 through and including December 25,2004. However, FAMU failed to provide any
 documentation for how it ,spent
                            - -
                                  the remaining Award funds disbursed by NSF to FAMU
 between September 1, A          through and including December 25,         , to wit,
 approximately $1.4 million.

        5.       The conduct described in paragraphs 2 through 4 is the "Covered
 Conduct."
       6.     OIG believes that FAMU may have provided false certifications to NSF
pertaining to its appropriate use of Award f h d s and its cost sharing contributions and
may have misspent Award funds.

      7.      FAMU believes that all Award funds were expended properly and all
required cost sharing amoutits were provided and that no misrepresentations were made
by FAMU or its representatives.

      11.    Awardee Obligations and NSF Authority
      8.      Applicable Federal cost principles and NSF award terms and conditions
require the awardee to provide adequate records demonstrating that claimed costs and
cost sharing amounts are allowable, allocable, and reasonable.

       9.     When OIG determines that an awardee is unable to provide adequate
records demonstrating that claimed costs and cost sharing amounts are allowable,
allocable, and reasonable, OIG must question those amounts in their entirety.

       10. When OIG questions claimed costs or cost sharing amounts, NSF must
determine whether to disallow those amounts; the awardee must reimburse any amounts
                                     .-
disallowed by NSF.

       11.   In circumstances in which an awardee is unable to provide adequate records
demonstrating that claimed costs and cost sharing amounts are allowable, allocable, and
reasonable, but NSF determines that the awardee's performance under the award was
adequate and that appropriate equitable circumstances exist, NSF has the authority to
adjust the amount that the awardee must reimburse to NSF.

       12. NSF also has the authority to settle disputes with awardees concerning
questionable charges and cost sharing contributions.

       ID. Terms and Conditions
       13.  In order to avoid the needless burden and expense of protracted litigation
and because NSF considers it in the public interest to settle such disputes, NSF and
FAMU have agreed to settle all claims raised by the Covered Conduct by virtue of this
agreement.

       14.    The Parties agree that FAMU will repay NSF the total sum of $1.495
million which represents: (1) the difference between what NSF dispersed to FAMU    - - -
under the Award, between September 1,        through and including December 25,
to wit, $4.8 million and what FAMU affirmatively documented in costs under the awtkd,
to wit, $3.4 million, and (2) the cost of OIG investigating this matter, to wit $95,000.
FAMU agrees to pay the above amount on a quarterly basis with the first quarterly
payment of $373,750.00 to be paid on or before September 30, 2005. Subsequent
quarterly payments in the same amount shall be paid on or before December 30, 2005,
March 30,2006 and June 30,2006. The quarterly payments shall be made by electronic
funds transfer pursuant to written instructions to be provided by NSF.
      15. The Parties agree to enter into and comply with the Compliance
Agreement, which is incorporated herein.

       16. The Parties agree that this settlement of the covered conduct will have no
effect on FAMU's submission of proposals to NSF or NSF's evaluation of FAMU
proposals.

       17. FAMU releases NSF and each of its officers, agents, employees, and
contractors and their employees for any and all claims, causes of action, adjustments, and
set-offs of any kind arising out of or pertaining to the Covered Conduct, including the
investigation of the Covered Conduct and this Agreement.

         18. Subject to the exceptions in paragraph 19 below, in consideration of the
 obligations of FAMU set forth in this Ageement, NSF on behalf of itself, its officers,
 employees, and agents, releases FAMU, its predecessors, successors, assigns, and
,affiliates fiom any civil or administrative monetary claims NSF has or may have under
 common law theories, including payment by mistake of fact, unjust enrichment,
 disgorgement, restitution, breach of contract, and breach of fiduciary duty for the
 Covered Conduct.

       19. Notwithstanding any provision of this Agreement, specifically reserved and
excluded fiom the scope and terms of this Agreement as to any entity or person
(including FAMU) are the following:

       (1)     Any civil, criminal, or administrative claims arising under Title 26, U.S.
               Code (Internal Revenue Code);

       (2)     Any criminal liability;

       (3)     Any liability to the United States (or its agencies) or NSF for any conduct
               other than the Covered Conduct;

       (4)      Any claims or administrative actions arising fkom a breach of this
             Settlement Agreement or the Compliance Agreement.
       (5)      FAMU's Corrective Action Plan with NSF and any NSF actions that follow
             from the Corrective Action Plan.

       20. In consideration of the repaid funds specified in paragraph 14 and the
compliance promised in paragraph 15, OIG agrees to conduct no further audit or
investigation activities concerning the Covered Conduct, except that in OIG's sole
discretion it may audit or investigate substantive credible evidence concerning
(1) FAMU's compliance with this Settlement Agreement or the Compliance
Agreement, or (2) other wrongdoing based on evidence not in OIG's possession at
the time of entering into this agreement. The Parties agree that, absent these
exceptions and the exclusions listed in Paragraph 19, the execution of the said
Agreements shall be final as to all matters alleged in the Agreements.

       21. FAMU fully and finally releases NSF, OIG, and their employees and
agents from any claims (including attorneys fees, costs, and expenses of every kind and
however denominated) which FAMU could have asserted or may assert in the future
against NSF, OIG, and their employees and agents, related to the Covered Conduct and
OIG's audit and investigation thereof through the effective date hereof.

       W. Breach and Default Provisions
       22. In the event that NSF believes FAMU has breached any of its obligations
under this Settlement Agreement, NSF shall noti@ FAMU of the alleged breach by
written notice to FAMU's Authorized Organizational Representative ("AOR"),
specifjling the nature and extent of the alleged breach. FAMU will have thirty (30) days
from receipt of the notice: (a) to cure said breach; or (b) otherwise satisfy NSF that (1) it
is in full compliance with this Settlement Agreement or (2) the breach cannot be
reasonably cured within thirty (30) days, but that FAMU has taken action to cure the
breach and is pursuing such action with diligence.

       23. If, at the end of the thirty (30) day period described above, NSF determines
that FAMU continues to be in breach of any of its obligations under this Settlement
Agreement, NSF may, by written notice sent to FAMU's AOR, declare FAMU to be in
default and initiate proceedings to undertake appropriate administrative action, including
but not limited to the suspension or termination of any active FAMU awards or and
including suspension or debarment of FAMU. If FAMU is suspended or debarred based
upon breach of the Settlement Agreement, and in the event FAMU fully cures the
material breach or otherwise satisfies NSF, it will be promptly reinstated.

       24. Should any action to enforce or interpret this Settlement Agreement or to
resolve any dispute hereunder be required, the Parties acknowledge the jurisdiction of the
federal courts.
                           v.     Costs
                           25. Each Party to this Settlement Agreement shall bear its own costs, expenses,
                    and fees incurred in implementing the terms of this agreement.

                           26. FAMU agrees that all costs, whether direct or indirect, incurred by or on
                    behalf of FAMU in connection with the following are unallowable costs under the cost
                    principles applicable to government Awards (hereafter, "unallowable costs"): (1) the
                    matters covered by this Settlement Agreement, (2) OIGYsinvestigation of the Covered
                    Conduct, (3) FAMU's investigation, defense, and corrective actions undertaken in
                    response to NSF's investigation in connection with the Covered Conduct and the matters
                    covered by this Settlement Agreement and the Compliance Agreement (including
                    attorney's fees), (4) the negotiation of this Settlement Agreement and the Compliance
                    Agreement, and (5) the payment made pursuant to this Settlement Agreement.

                          27, These unallowable costs will be separately estimated and accounted for by
                    FAMU and FAMU will not charge such unallowable costs directly or indirectly to any .
                    Federal Awards, including but not limited to grants, contracts and cooperative
                    agreements.

                           VI. Modification
I                            28. F&4U, NSF and OIG agree that any modification to this Settlement
            '   3   .Agreement shall not be effective until a written amendment is signed by representatives
                     'duly authorized to execute such amendment.

                           VII.   Integration Clause
    I

                          29. This Settlement Agreement and the Compliance Agreement entered into by
    I
    I               NSF, OIG and FAMU embody the entire and exclusive agreement and understanding of
    I               the Parties with respect to the covered conduct addressed herein. As to the covered
                    conduct, there are no restrictions, promises, representations, warranties, covenants, or
        !           undertakings other than those expressly set forth or referred to in this Settlement
                    Agreement and the Compliance Agreement.
        I



                           30. This Agreement will be deemed effective on the date that it is fully
        1            executed by the final signatory to this Settlement Agreement. It is understood that
                     FAMU will not be bound by the terms of this Settlement Agreement until the Board of
                     Trustees of FAMU ratifies the execution of this Settlement Agreement by its Interim
                     President.
          3 1.    Each person who signs this Agreement in a representative capacity warrants
   that he or she is duly authorized to do so. IN WITNESS WHEREOF,the Parties hereto
   affix their signatures.
                                                                                               I
                        FOR THE NATIONAL SCIENCE FOUNDATION



                                                                      L9 3"-          200<
                                                                            Date
    Chief Financial Offtcer & Director, Ofice of Budget, Finance, and Award Management



                    FOR THE NSF OFFICE OF INSPECTOR GENERAL



                                                                            &/29/d<
/I, ~hristineC. Boesz, Dr.P.H.                                                Date
    Inspector General



          FOR FLORIDA AGRICULTURAL AND MECHANICAL UNIVERSITY




    Interim President
